No. 20-1089
IN THE

Supreme Court of the United States
CHEVRON CORPORATION, ET AL.,
Petitioners,
v.
CITY OF OAKLAND, CALIFORNIA, ET AL.,
Respondents.
On Petition for a Writ of Certiorari
to the United States Court of Appeals
for the Ninth Circuit
CERTIFICATE OF SERVICE

I am a member of the Bar of this Court, and I hereby certify pursuant to
Supreme Court Rules 29.3, 29.5 (as modified by this Court’s Order of April 15,
2020), and 37.5 that I have, this 11th day of March, 2021, served the Brief for the
American Petroleum Institute as Amicus Curiae Supporting Petitioners upon each
party separately represented in this proceeding by causing an electronic copy of the
same to be delivered to counsel of record at the e-mail addresses listed below:
Peter D. Keisler
Sidley Austin LLP
1501 K Street, N.W.
Washington, DC 20005
pkeisler@sidley.com
Counsel of Record for Petitioners
Victor M. Sher
Sher Edling LLP
100 Montgomery St. Ste. 1410
San Francisco, CA 94104
vic@sheredling.com
Counsel of Record for Respondents

Pursuant to the Court’s April 15, 2020 Order, I certify that all parties have
agreed to accept such electronic service in lieu of service of paper copies. I further
certify that all persons required to be served have been served.
In addition, pursuant to Supreme Court Rule 29.7, I certify that I have
caused electronic copies of all documents to be filed with the Clerk.

____________________________
ANDREW KIM
GOODWIN PROCTER LLP
1900 N Street, N.W.
Washington, DC 20036
andrewkim@goodwinlaw.com
(202) 346-4000
March 11, 2021

Counsel for Amicus Curiae

2

